■COCKLE

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

vL^^^Legal Briefs
Est. 1923

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com
No.
DARREL CONELL NEVELS,
Petitioner,
vs.
PIGGLY WIGGLY CORPORATION
AND NASEEM JR. AJLOUNY,
Respondents.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 15th day of August, 2019, send out
from Omaha, NE 2 package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:
SEE ATTACHED
To be filed for:

DARREL CONELL NEVELS
ProSe
P. O. Box 39755
Birmingham, Alabama 35208
Tel.: (205) 230-1115
E-mail: darrelnevels@g-mail.com
Friend of the Court

RECEIVED
AUG 1 9 2019

Subscribed and sworn to before me this 15th day of August, 2019.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

OFFICE OF THE CLERK
SUPREME COURT. ttsT
PATRICIA BILLOTTE
General Notary
State of Nebraska
My Commission Expires Nov 24,2020

>
»
1

Notary Public

Affiant

38442

Attorney for Respondents
Piggly Wiggly Corporation and Naseem Jr. Ajlouny:
Robert M. Girardeau
Huie Fermanbucq & Stewart LLP
2801 Highway 280 South
Suite 200
Birmingham, AL 35223
(205) 251-1193
bgirardeau@huielaw.com

Other Interested Parties:
Piggly Wiggly Distributions
2400 J. Terrell Wooten Drive
Bessemer, AL 35020
No phone/email available.

